HHS/OIG-Audit--"Review of the Georgia Department of Medical Assistance's Reimbursement for Clinical Laboratory Services Under the Medicaid Program, (A-04-95-01109)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Georgia Department of Medical Assistance's Reimbursement for Clinical Laboratory Services Under the
Medicaid Program," (A-04-95-01109)
March 26, 1996
Complete
Text of Report is available in PDF format (801 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Georgia Department of Medical Assistance (State agency) does not have adequate
edits in place to prevent the payment of unbundled or duplicated claims for certain laboratory services. A statistical
sample of 150 claims showed that 141 claims were not paid correctly. We estimate that the State agency overpaid and should
recover form providers $2,151,967 (Federal share) for unbundled/duplicated laboratory tests for calendar years 1993 and
1994. We recommended that the State agency install edits to detect and prevent payments for unbundled services and billings
which contain duplicative tests, in addition to recommendations calling for financial adjustments. The State agency concurred
with our recommendations.